No. 20-427

In the Supreme Court of the Anited States

POLK COUNTY, WISCONSIN

Petitioner,
v.
J.KJ. and M.J.J.,

Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae Supporting Petitioner contains 5,372 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on Novemb 2020.

    
 

Mickael J. Bentley__
Counsel of Record

Bradley Arant Boult Cummings LLP

One Jackson Place

188 E. Capitol St., Ste. 1000

Jackson, MS 39201

(601) 948-8000

ntbentley@bradley.com

Counsel for The National Sheriffs’ Association,
Amicus Curiae
